                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




         OIG selected this award' as part of a random review of awards for conferences, workshops and
         symposia. In response to our request for costs claimed and incurred for the $18,500 grant, the
                     9
         universit supplied documentation for $11,346.96 in cost leaving $7,153.04 unaccounted for.

         OIG contacted the organization to request documentation for the remaining expenditures. The
         university supplied the information requested. After reviewing the additional information sent by the
         university, it was clear that funds designated for participant support were re-directed to other budget
         line items, specifically salary and fringe benefits for the coordinator and indirect costs.

         NSF's grant conditions state that an awardee must receive prior written approval from the program
         director to reallocated funds designated for participant support. There was no documentation in the
         grant file or documentation sent by the university stating that the university had such permission.
         OIG contacted the program director3tofind out if the awardee received approval (either orally or in
         writing) to re-budget funds designated for participant support. The program director could not recall
         giving such approval.

         The university was contacted again to ascertain if it had prior written approval from the program
         officer to reallocate funds designated for participant support. The university forwarded a copy of the
         email correspondence (dated 2 February 02) from the program officer approving the reallocation of
         approximately $3025.00 originally designated for participant support.

         The university sought and received approval to reallocate the funds. There is no other indication that
         the university did not follow NSF's grant conditions. Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
